                      0


   U.S. SPECIAL OPERATIONS COMMAND YEAR 2000 ISSUES


Report No. 98-129                         MAY 0, 1998




              Office of the Inspector General
                  Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
  General, DOD, Home Page at: WWW.DODIG.OSD.MIL.
  Suggestions for Future Audits
  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support
  Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
  and requests can also be mailed to:

                      OAIG-AUD (ATTN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 4249098; by sending an electronic message to
  Hotline@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
  Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
  is fully protected.




Acronyms

SOCOM                 US. Special Operations Command
Y2K                   Year 2000
                              INSPECTOR    GENERAL
                             DEPARTMENT   OF DEFENSE
                               400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGINIA 22202




                                                                            May 8, 1998

MEMORANDUM FOR COMMANDER IN CHIEF, U.S. SPECIAL OPERATIONS
                 COMMAND
               DIRECTOR, JOINT STAFF

SUBJECT: Audit Report on U.S. Special Operations Command Year 2000 Issues
         (Report No. 98-129)

     We are providing this audit report for information and use. We considered
comments on a draft of this report in preparing the final report.

        Comments on the draft of this report conformed to the requirements of DOD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.

        We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Ms. Mary Lu Ugone, at (703) 6049049 (DSN 664-9049); or
Ms. Dianna J. Pearson, at (703) 604-9063 (DSN 6649063). See Appendix C for the
report distribution. The audit team members are listed inside the back cover.




                                         Robert JiLieberman
                                      Assistant Inspector General   ’
                                              for Auditing
                       Offke of the Inspector General, DOD

Report No. 98-129                                                          May 8, 1998
  (Project No. 8AS-OOO6.00)



           U.S. Special Operations Command Year 2000 Issues

                                Executive Summary

Introduction. This is one in a series of reports being issued by the Inspector General,
DOD, in accordance with an informal partnership with the Chief Information Officer,
DOD, to monitor DOD efforts to address the year 2000 computing challenge.

Information technology systems have typically used two digits to represent the year,
such as “98” representing 1998, to conserve electronic storage and reduce operating
costs. With the two-digit format, however, the year 2000 is indistinguishable from
1900. As a result of the ambiguity, computers and associated systems and application
programs that use dates to calculate, compare, and sort could generate incorrect results
when working with years after 1999.

Audit Objectives. The overall audit objective was to evaluate the status of the U. S.
Special Operations Command’s progress in resolving the year 2000 computing issue.
Our audit focused on the following year 2000 issues: leadership support and
awareness, management and resolution strategy, system assessments, prioritization,
system interfaces, testing, risk analysis and contingency planning, and support received
from responsible Service executive agents. We did not review the management control
program related to the overall audit objective because DOD recognizes the year 2000
issue as a material management control weakness area in the FY 1997 Annual
Statement of Assurance.

Audit Results. The U.S. Special Operations Command has recognized the importance
of the year 2000 issue and has taken numerous positive actions in addressing the year
2000 problem. Additionally, the U.S. Special Operations Command advocates using
existing planned exercises to test year 2000 scenarios in an operational environment.      i
We strongly agree.

The progress that the U.S. Special Operations Command made in resolving the year
2ooO computing issue is not complete. Unless the U.S. Special Operations Command
makes further progress, it faces a high risk that year-2000-related disruptions will
impair its mission capabilities. See Part I for details of the audit results.

Summary of Recommendations. We recommend that the Commander in Chief, U.S.
Special Operations Command, review changes to the DOD Year 2000 Management
Plan and take appropriate action based on those changes; continue to identify mission-
critical systems that the U.S. Special Operations Command manages; continue to
identify interfaces and prepare written interface agreements for mission-critical systems
that the U.S. Special Operations Command manages; continue to identify mission-
critical supporting systems that Services or other organizations manage; refine cost
estimates for each individual system to determine amounts needed for fund allocation;
develop contingency plans for mission-critical systems in accordance with the U.S.
Special Operations Command Year 2000 Management Plan; determine systems as year
2ooO compliant only after testing and completing compliance checklists; and use
selected command and joint exercises to test year 2000 scenarios in an operational
environment. We recommend that the Director, Joint Staff, assist the unified
commands in obtaining year 2000 information on mission-critical supporting systems
that Services or other organizations manage; assist the unified commands in testing
systems and applications common to the unified co mmands; and use selected joint
exercises to test year 2000 scenarios in an operational environment.

Management Comments. The U.S. Special Operations Command concurred with all
of the recommendations, stating progress made and future intentions for each
recommendation. The Joint Staff concurred with the recommendations, stating actions
that it is taking to address the issues. See Part I for a summary of management
comments and Part III for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                        i

Part I - Audit Results
      Audit Background
      Audit Objectives
      Status of the U.S. Special Operations Command Year 2000 Program

Part II - Additional Information
      Appendix A. Audit Process
        scope                                                           14
        Methodology
        Prior Audit Coverage                                            ::
      Appendix B. Reporting, Schedule, and Area of Concern              15
      Appendix C. Report Distribution                                   18

Part III - Management Comments
      U.S. Special Operations Command Comments                          22
      Joint Staff Comments                                              26
Part I - Audit Results
Audit Background
    The year 2ooO (Y2K) problem is the term most often used to describe the
    potential failure of information technology systems to process or perform date-
    related functions before, on, or after the turn of the century. The Y2K problem
    is rooted in the way that automated information systems record and compute
    dates. For the past several decades, systems have typically used two digits to
    represent the year, such as “98” representing 1998, to conserve on electronic
    data storage and reduce operating costs. With the two-digit format, however,
    the Y2K is indistinguishable from 1900. As a result of the ambiguity,
    computers and associated system and application programs that use dates to
    calculate, compare, or sort could generate incorrect results when working with
    years following 1999. Calculation of Y2K dates is further complicated because
    the year 2000 is a leap year, the fust century leap year since 1600. The
    computer systems and applications must recognize February 29, 2000, as a valid
    date.

    Because of the potential failure of computers to run or function throughout the
    Government, the President issued an Executive Order, “Year 2000
    Conversion,” February 4, 1998, making it policy that Federal agencies ensure
    that no critical Federal program experiences disruption because of the Y2K
    problem and that the head of each agency ensure that efforts to address the Y2K
    problem receive the highest priority attention in the agency. In addition, the
    General Accounting Office has designated resolution of the Y2K problem as a
    high-risk area, and DOD recognized the Y2K issue as a material management
    control weakness area in the FY 1997 Annual Statement of Assurance.

    DOD Y2K Management Strategy. In his role as the DOD Chief Information
    Officer, the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) issued the “DOD Year 2000 Management
    Plan” (DOD Management Plan) in April 1997. The DOD Management Plan
    provides the overall DOD strategy and guidance for inventorying, prioritizing,
    fxing, or retiring systems, and monitoring progress. The DOD Management
    Plan states that the DOD Chief Information Officer has overall responsibility for
    overseeing the DOD solution to the Y2K problem. Also, the DOD Management
    Plan makes the DOD Components responsible for the five-phase Y2K
    management process. The DOD Management Plan includes a description of the
    five-phase Y2K management process.

    The Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence) is in the process of issuing an updated DOD Management Plan,
    which further accelerates the target completion dates for the Renovation,
    Validation, and Implementation phases, resulting in a completion date of
    December 1998.

    In a memorandum for the heads of executive departments and agencies dated
    January 20, 1998, the Office of Management and Budget established a new
    target date of March 1999 for implementing all corrective actions to all systems.
    The new target completion dates are September 1998 for the Renovation phase
    and January 1999 for the Validation phase.
                                        2
The Joint Chiefs of Staff. The Chairman of the Joint Chiefs of Staff is the
principal military advisor to the President, the Secretary of Defense, and the
National Security Council. The Joint Chiefs of Staff have no executive
authority to command the combatant forces. The Secretaries of the Military
Departments assign all forces under their jurisdiction to the unified commands
to perform missions assigned to those commands.

        The Joint Staff. The Joint Staff assists the Chairman of the Joint Chiefs
of Staff with unified strategic direction of the combatant forces, unified
operation of the combatant commands, and integration into an efficient team of
land, naval, and air forces. The Joint Staff Director, Comman d, Control,
Communications, and Computer Systems (J6), has been designated by the
Chairman of the Joint Chiefs of Staff to oversee the unified commands’ and
Joint Staffs implementation of the DOD Y2K Management Plan.

        Year 2000 Action Plan. The Joint Staff Year 2000 Action Plan,
March 1998, provides the unified commands and Joint Staff directorates with
the corporate strategy and management approach for addressing the Y2K
problem. The Joint Staff Action Plan uses the accelerated target completion
dates for the Renovation, Validation, and Implementation phases. The Joint
Staff Year 2ooO Action Plan states that the unified commands should target
December 31, 1998, for completion of all Y2K efforts.

U.S. Special Operations Command. The U.S. Special Operations Command
(SOCOM) is one of nine unified commands in the U.S. military’s combatant
command structure. The SOCOM was activated on April 16, 1987, as a result
of the Cohen-Nunn amendment to the National Defense Authorization Act for
FY 1987. The overall mission of SOCOM is to prepare special operations
forces to successfully conduct worldwide special operations, civil affairs, and
psychological operations in peace and war in support of the regional combatant
commanders, American ambassadors and their country teams, and other
Government agencies.

Congress created SOCOM to correct serious deficiencies in the United States’
ability to conduct special operations and engage in low-intensity conflict
activities. The SOCOM was assigned many Service-like responsibilities,
including training, ensuring combat readiness, monitoring personnel promotions
and assignments, and developing and acquiring special operations forces-
peculiar equipment. The SOCOM was also given responsibility for managing a
separate major force program to ensure that the special operations forces
program has visibility at the DOD and congressional levels. The four
component commands of SOCOM are the Army Special Operations Command,
the Naval Special Warfare Command, the Air Force Special Operations
Command, and the Joint Special Operations Command. Additionally, the
special operations commands and personnel from civil affairs and psychological
operations provide special operations forces to the geographic unified
commands.




                                    3
                                                            .




Audit Objectives
     The overall audit objective was to evaluate the status of the progress of SOCOM
     in resolving its Y2K computing issue. Our audit focused on the following Y2K
     issues: leadership support and awareness, management and resolution strategy,
     system assessments, prioritization, system interfaces, testing, risk analysis and
     contingency planning, and support received from responsible Service executive
     agents. We did not review the management control program related to the
     overall audit objective because DOD recognizes the Y2K issue as a material
     management control weakness area in the FY 1997 Annual Statement of
     Assurance. See Appendix A for a discussion of the audit scope and
     methodology and Appendix B for a summary of prior audit coverage.




                                         4
          Status of the U.S. Special Operations
          Command Year 2000 Program
          The SOCOM has recognized the importance of the Y2K issue and has
          taken many positive actions to address the Y2K problem. Additionally,
          SOCOM advocates using selected comman d and joint exercises to test
          Y2K scenarios in an operational environment. The progress that
          SOCOM made in resolving the Y2K computing issue is not complete
          because SOCOM did not fully address several critical issues. To ensure
          that its mission-critical systems will successfully operate at the Y2K and
          beyond, SOCOM, including its component commands and functional
          directorates, must further do the following to address critical issues:

              review changes to the DOD Y2K Management Plan and take
              appropriate action based on the changes;

              continue to identify mission-critical systems that SOCOM manages;

              continue to identify interfaces and prepare written interface
              agreements for mission-critical systems that SOCOM manages;

              continue to identify mission-critical supporting systems that Services
              or other organizations manage;

              refine cost estimates for each individual system to determine the
              amounts needed for fund allocation;

              develop contingency plans for mission-critical systems in accordance
              with the SOCOM Y2K Management Plan;

              determine systems as Y2K compliant only after testing the systems
              and completing compliance checklists; and       .

              use selected command and joint exercises to test Y2K scenarios in an
              operational environment.
                                                                                       ,
          Designating Y2K as a Commander’s special interest item in selected
          exercises to test Y2K scenarios may assist SOCOM in making further
          progress in identifying and resolving Y2K problems. Unless SOCOM
          makes further progress, it faces a high risk that Y2K-related disruptions
          will impair its mission capabilities.



Actions Taken to Address the Year 2000 Problem
    The SOCOM has recognized the importance of the Y2K issue and has taken
    many positive actions to address the Y2K problem. The SOCOM has

                                       5
Status of the U.S. Special Operations Command Year 2000 Program



      established a Y2K program management structure that provides management
      awareness and involvement in developing and executing the SOCOM Y2K
      strategy. Additionally, SOCOM advocates using selected command and joint
      exercises to test Y2K scenarios in an operational environment. We strongly
      agree.

      Specific Actions. The SOCOM has taken the following actions as part of its
      efforts to address the Y2K problem:

              l   developed a SOCOM Y2K Management Plan that establishes
      strategies, policies, and procedures that SOCOM will follow to identify and
      resolve Y2K issues;

             l   established the SOCOM Y2K Steering Group and the SOCOM
      Acquisition Executive Integrated Project Team to assist in Y2K efforts;

            l  reinforced the importance of Y2K efforts at top levels of
      management; and

              l   initiated contact and established a working relationship with the Joint
      Interoperability Test Command on testing issues.

      The DOD Chief Information Officer has updated the DOD Y2K Management
      Plan and has released a new version in draft. The SOCOM needs to review
      changes to the DOD Y2K Management Plan and take appropriate action based
      on those changes.

      Y2K Program Management. The Director of Command, Control,
      Communications, Computers, and Information Systems, who also serves as the
      SOCOM Chief Information Officer, has principal staff oversight for the Y2K
      project. The SOCOM has the Y2K Steering Group and the SOCOM
      Acquisition Executive Integrated Project Team to assist in Y2K efforts. The
      SOCOM Y2K Steering Group assists the Directorate of Command, Control,
      Communications, Computers, and Information Systems in the development and
      execution of the Y2K strategy of SOCOM. The Y2K Steering Group’s focus is
      on developing an affordable and executable strategy. The core membership
      consists of representatives from each of the functional directorates, as well as
      the Command Engineer and the SOCOM Acquisition Executive. In addition,
      the SOCOM Acquisition Executive organized the Y2K Integrated Project Team
      to manage and provide oversight to the Y2K-vulnerable systems that the
      SOCOM Acquisition Executive manages.



Identification of Systems and Interfaces
      The SOCOM component commands and functional directorates need to be more
      engaged in the identification of mission-critical systems interfaces, especially
      the mission-critical supporting systems that Services or other organizations
      manage. Managed systems are those for which SOCOM has program

                                           6
        Status of the U.S. Special Operations Command Year 2000 Program



management responsibility. Supporting systems are those that Services or other
organizations manage. As of November 1997, SOCOM identified 35 SOCOM-
managed systems and 82 supporting systems. The SOCOM determined that 12
of the 35 SOCOM-managed systems are mission critical, but it has not
identified any of the 82 supporting systems as mission critical. Based on
management comments, SOCOM identified 37 SOCOM-managed ,mission-
critical systems, as of February 23, 1998, and has identified 68 mission-critical
supporting systems, as of April 10, 1998. Table B-l in Appendix B provides
the number and type of SOCOM systems.

Systems Inventory. The SOCOM developed its original list of systems in
December 1996 from a budget database. The SOCOM used the budget database
because the information received from the SOCOM functional directorates and
component commands included a small number of systems and a large number
of desktop computers, and therefore the information was not sufficient. In
addition, the SOCOM Acquisition Executive used a payments database to help
identify SOCOM systems. The SOCOM Acquisition Executive identified the
systems in the payments database and determined who was responsible for
resolving Y2K issues.

The SOCOM then merged the budget database and the payments database and
performed further assessments on the systems to develop a more accurate and
complete list of systems. However! SOCOM is continually updating the system
inventory list. For example, in its mitial Y2K assessment, SOCOM identified
and reported 85 systems as reportable. However, for the fust quarter FY 1998
quarterly report, SOCOM determined that 26 systems were SOCOM Y2K
reportable systems and recategorized the other 59 systems as supporting
systems. In addition to recategorizing 59 systems from SOCOM-managed
systems to supporting systems, the list of supporting systems is evolving. For
example, SOCOM has not confirmed an executive agent for 11 of the 82
supporting systems. Also, 5 of those 11 systems show 2 responsible
organizations. The SOCOM needs more assistance from the Joint Staff to
obtain Y2K information for supporting systems that Services or other
organizations manage.

Mission-Critical Systems. The SOCOM, through the SOCOM Y2K Steering
Group, has identified 12 of the 35 SOCOM-managed systems as mission
critical, as of November 1997. However, SOCOM has not identified any of the
82 supporting systems as mission critical. We reviewed the Services’ and the
Defense Information Systems Agency’s mission-critical systems lists. As of
November 1997, the lists identify only 9 of the 54 supporting systems belonging
to the Services and Defense Information Systems Agency as mission critical.
The SOCOM, with the help of its component commands and the functional
directorates, needs to identify mission-critical supporting systems because the
appropriate executive agents need to be aware of the systems that are critical to
the SOCOM mission. After SOCOM has identified the mission-critical
supporting systems, the Joint Staff should assist SOCOM and the other unified
commands in obtaining Y2K information on mission-critical supporting systems
that Services or other organizations manage.


                                    7
Status of the U.S. Special Operations Command Year 2000 Program



      Based on management comments, SOCOM identified 37 SOCOM-managed
      mission-critical systems, as of February 23, 1998, and has identified 68
      mission-critical supporting systems, as of April 10, 1998.

      Interfaces. The SOCOM has not completed identifying system interfaces and
      preparing written interface agreements. The DOD Y2K Management Plan states
      that interfaces involve sending and receiving data among Services, Defense
      agencies, or both, or external DOD vendors. Interfaces are critical to the Y2K
      effort because they have the potential to introduce or propagate errors, or both,
      from one DOD Component to another. The systems of SOCOM interface with
      or connect to many computer systems belonging to the Services, DOD
      Components, and other organizations. In addition to known interfaces,
      SOCOM may interface with systems of allied, coalition, and other Federal
      agencies. Because those systems are also vulnerable to Y2K problems, they can
      also introduce or propagate errors, or both, into SOCOM systems. Timely and
      complete information on all system interfaces that may be affected by Y2K
      changes is critical to the success of the Y2K compliance program of SOCOM.



Written Interface Agreements
      After SOCOM identifies interfaces, it should communicate through interface
      agreements its interface plans to interface partners so that they are-aware of
      SOCOM plans and any possible conflicts. The sample Y2K compliance
      checklist in the DOD Y2K Management Plan states that DOD Components and
      each interface partner should negotiate an agreement dealing with Y2K issues.
      The DOD Components and their interface partners should discuss and verify that
      they have implemented consistent Y2K corrections for data passed between the
      systems. The SOCOM needs to prepare written interface agreements to reduce
      the risk of discovering too late in the Y2K effort that an interfacing system will
      not be able to accommodate the agency’s own Y2K changes.

      Based on management comments, as of March 1998, SOCOM has identified
      141 interfaces between SOCOM-managed systems and supporting systems that
      Services or other organizations manage. The SOCOM has identified
      August 3, 1998, as the target completion date for all interface memorandums of
      agreement.



Cost Estimates
     The SOCOM has made initial cost estimates based on available information;
     however, SOCOM has not refined the cost estimates for each individual system.
     Many factors influence cost estimates, including building the test environment,
     buying tools and services, adding hardware, and upgrading operating systems
     software and commercial products. In addition, unidentified testing costs may
     increase the overall Y2K estimated cost. The SOCOM can develop cost
     estimates from the checklist in the DOD Y2K Management Plan or by any other

                                          8
             Status of the U.S. Special Operations Command Year 2000 Program



    accurate means; however, the DOD Y2K Management Plan states that DOD
    Components must identify the methodology used to develo the cost estimates.
    As of November 1997, SOCOM has spent approximately 9 850,000 on Y2K
    costs, with a total estimated Y2K cost of $5.8 million. The SOCOM is
    aggressively seeking ways to reallocate funds to cover the $5.8 million. Based
    on management comments, as of April 10, 1998, SOCOM identified
    $11 million as required to fix the Y2K non-compliant systems.



Contingency Plans
    The SOCOM has not developed contingency plans for each system. The DOD
     Y2K   Management   Plan states that DOD Components   should develop   realistic
    contingency plans, including the development and activation of manual or
    contract procedures to ensure the continuity of core processes. The SOCOM is
    scheduled to start developing contingency plans in March 1998 and to complete
    them by August 1998. Contingency plans may already exist for some mission-
    critical systems. Those that may have automation as the backup need to assess
    the backup for Y2K issues.



Testing and Compliance Checklists
     The SOCOM reports that 17 of 35 managed systems are Y2K compliant, and 5
     of 12 mission-critical managed systems are Y2K compliant. However, SOCOM
     made that determination without testing, without identifying all interfaces for
     those systems, and without completing compliance checklists. The systems tbat
     SOCOM initially assessed as Y2K compliant are placed in the “validation”
     phase. The SOCOM should not report the systems as Y2K compliant until the
     systems have been tested and certified.

     Testing. The DOD Y2K Management Plan states that DOD Components need
     an extensive period of time to adequately validate and test converted or replaced
     systems for Y2K compliance. DOD Components must not only test Y2K
     compliance of individual applications, but must also test the complex
     interactions between scores of converted or replaced computer platforms,
     operating systems, utilities, applications, databases, and interfaces. All
     converted or replaced system components introduced during the “renovation”
     phase must be thoroughly validated and tested to uncover errors, validate Y2K
     compliance, and verify operational readiness. The Joint Staff should assist the
     unified commands in testing systems and applications common to the unified
     commands.

     As of November 1997, the Joint Interoperability Test Command is either
     renovating or testing seven systems and devices, four of which are mission
     critical, that SOCOM manages. However, SOCOM has not identified all the
     system interfaces that require testing. The Joint Interoperability Test Command
     provides general assistance in Y2K resolution that includes test planning, test

                                         9
Status of the U.S. Special Operations Command Year 2000 Program



      case development, and solution recommendations. The SOCOM provides
      funding if SOCOM requires contractor support or the use of the Defense
      megacenters. The SOCOM also provides funding for any travel required by
      Government or contractor personnel. In addition, the Joint Interoperability Test
      Command can provide specific assistance in support of a system to include
      analysis of hardware platforms and software application packages, development
      and execution of a Y2K test plan, recommendations to resolve Y2K impacts,
      and implementation of resolution recommendations.
      Compliance Checklisk Although SOCOM has an aggressive compliance plan,
      it has not followed the plan for all systems. The DOD Y2K Management Plan
      states that DOD Components should develop and document test and compliance
      plans and schedules for each converted or replaced application or system
      component. The DOD Y2K Management Plan provides a YZK-compliance
      checklist to aid system managers in ensuring that their systems are compliant for
      the Y2K. The compliance checklist provided in the DOD Y2K Management
      Plan lists items that should be included in a DOD Component’s Y2K testing and
      compliance process. The SOCOM developed a Y2K-compliance certification
      plan that provides the instructions for determining compliance of information
      technology, software, and systems that have a Y2K problem. The SOCOM
      compliance certification plan also provides the steps necessary to ascertain
      whether information technology systems have been correctly modified to ensure
      a non-impact transition from the twentieth century to the twenty-first century.
      The SOCOM compliance certification plan states that those systems deemed
      properly modified will be certified as Y2K compliant. In addition, the SOCOM
      compliance certification plan requires certifications from the test manager,
      system manager, and system customer for each compliance checklist. The
      SOCOM is developing an applications test bed to provide Y2K testing for in-
      house-generated database applications.


Use of Selected Command and Joint Exercises to Test Y2K
Scenarios
      The SOCOM advocates using selected exercises to test Y2K scenarios in an
      operational environment. We strongly agree. Unified command exercises test
      operational plans, validate force apportionment, support political and military
      relationships and objectives, and foster regional engagements of unified
      commanders. Joint exercises include joint training events based on approved
      joint doctrine that prepares joint forces or staffs to respond to operational
      requirements established by the combatant commanders to accomplish their
      assigned missions. Mission focus is critical to the effectiveness and efficiency
      of joint training exercises. The goals of joint training are to prepare for war,
      prepare for military operations other than war, prepare for multinational
      operations, and integrate the interagency process. The joint exercises focus on
      plans, policies, procedures, and training required to ensure that senior leaders
      can effectively direct and integrate U.S. and coalition military forces during
      war. Common operational joint tasks are activities conducted by or for multiple
       supported commands under similar conditions and to a common joint standard.
                                          10
             Status of the U.S. Special Operations Command Year 2000 Program



     The common tasks are selected by multiple combatant commands through the
     mission analysis process, and they describe a list of core joint competencies that
     are fundamental to joint operations. The common joint tasks include the
     following:
             l   conducting operational movement and maneuvers,
             l   developing operational intelligence,
             l   employing operational firepower,
             l   providing operational support,
             l   exercising operational command and control, and
             l   providing operational protection.

     Selected command and joint exercises could be used to measure the extent of
     potential Y2K problems that face the warfighter and allow time to correct
     critical problems. Because of time constraints posed by Y2K issues, using
     selected co mmand and joint exercises to test Y2K scenarios may assist SOCOM
     in making further progress to identify and resolve Y2K problems.


Conclusion
     Although SOCOM has made initial progress, it must continue to address several
     critical issues. SOCOM has recognized the importance of solving Y2K
     problems in its systems to reduce the risk of failure with its own Y2K effort,
     but SOCOM must take every possible measure to ensure that it is well-
     positioned to deal with unexpected problems and delays. Y2K testing would be
     a timely Commander’s special interest item for 1998 in the joint exercise
     scenario development. The nation’s special operations forces provide the
     National Command Authorities with a highly trained, rapidly deployable joint
     force that is capable of conducting special operations anywhere in the world.
     Unless SOCOM makes further progress, it faces a high risk that its mission
     capabilities will be impaired because of Y2K-related disruptions. Copies of this
     report are being provided to all unified commands to facilitate self reviews of
     Y2K efforts.




                                           11
Status of the U.S. Special Operations Command Year 2000 Program




Recommendations and Management Comments
      1. We recommend that the Commander in Chief, U.S. Special Operations
      Command:
             a. Review changes to the “DOD Year 2000 Management Plan,” and
      take appropriate action based on those changes.
            b. Continue to identify mission-critical systems that the U.S. Special
      Operations Command manages.

            c. Continue to identify interfaces and prepare written interface
      agreements for mission-critical systems that the U.S. Special Operations
      Command manages.

             d. Continue to identify mission-critical supporting systems that
      Services or other organizations manage.

            e. Refme cost estimates for each individual system to determine
      amounts needed for fund allocation.

             f. Develop contingency plans for mission-critical systems in
      accordance with the U.S. Special Operations Command Year 2000
      Management Plan.

             g. Determine systems as year 2000 compliant only after testing the
      systems and completing compliance checklists.
             h. Use selected command and joint exercises to test year 2000
      scenarios in an operational environment.

      Management Comments. The SOCOM concurred with all of the
      recommendations, stating progress made and future intentions for each
      recommendation.

      2. We recommend that the Director, Joint Staff:

             a. Assist the unified commands in obtaining year 2000 information
      on mission-critical supporting systems that Services or other organizations
      manage.

             b. Assist the unified commands in testing systems and applications
      that are common to the unified commands.

             c. Use selected joint exercises to test year 2000 scenarios in an
      operational environment.

      Management Comments. The Joint Staff concurred with the
      recommendations, stating actions that it is taking to address the issues.
                                           12
Part II - Additional Information
Appendix A. Audit Process

Scope
    This is one of a series of reports being issued by the Inspector General, DOD, in
    accordance with an informal partnership with the Chief Information Officer,
    DOD, to monitor DOD efforts to address the Y2K computing challenge. For a
    listing of audit projects addressing the Y2K issue, see the Y2K webpage on
    IGnet at http://www.ignet.gov.

    We reviewed and evaluated the status of the progress of SOCOM in resolving
    the Y2K computing issue. We evaluated the Y2K efforts of SOCOM,
    compared with those efforts described in the DOD Y2K Management Plan
    issued by the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) in April 1997. We obtained documentation
    including the SOCOM Draft Y2K Management Plan, the SOCOM Y2K
    Compliance Certification Plan, and systems inventory database information.
    We used the information to assess efforts related to the multiple phases of
    managing the Y2K problem.


Methodology
    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from October 1997 through January 1998 in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DOD. We did not use computer-
    processed data for this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DOD. Further details are available upon request.

    Management Control Program. We did not review the management control
    program related to the overall audit objective because DOD recognized the Y2K
    issue as a material management control weakness area in the FY 1997 Annual
    Statement of Assurance.


Prior Audit Coverage
     The General Accounting Office and the Inspector General, DOD, have
     conducted multiple reviews related to Y2K issues. General Accounting Office
     reports can be accessed over the Internet at http://www.gao.gov. Inspector
     General, DOD, reports can be accessed over the Internet at
     http://www.dodig.osd.mil.

                                        14
Appendix B. Reporting, Schedule, and Area of
Concern


External and Internal Reporting
     Y2K Reporting Requirements. DOD Components* are required to submit Y2K
     quarterly reports to the DOD Chief Information Officer to satisfy both DOD and
     Office of Management and Budget reporting requirements.
            DoD Reporting Requirements. On March 12, 1997, the DOD Chief
    Information Officer issued the memorandum, “Year 2000 Refined Reporting
    Requirements for DOD, n which established minimum quarterly reporting
    requirements for Y2K assessment and progress for 23 DOD Components. The
    information is intended to show the status of DOD Y2K efforts and is being used
    by the DOD Chief Information Officer to perform oversight for DOD Y2K
    efforts and to fulfill Office of Management and Budget reporting requirements
    at the DOD level.

            Office of Management and Budget Reporting Requirements. On
    May 7, 1997, the Office of Management and Budget issued the “Memorandum
    on Computer Difficulties Due to the Year 2000 -- Progress Reports. n The
    purpose of the memorandum is to provide Y2K progress reports to Congress
    and the public. Each agency is required to report on mission-critical systems,
    including information on the number of systems that are Y2K compliant, are
    being replaced, are being repaired, and are being retired.

    SOCOM External Reporting Process. The Joint Staff and the nine unified
    commands comprise one of the 23 DOD Components identified for Y2K
    quarterly reporting. The SOCOM sends its quarterly report information to the
    Joint Staff. The Joint Staff then submits the SOCOM information, along with
    other unified command information and the Headquarters, Joint Staff,
    information to the DOD Chief Information Officer. The DOD Chief Information
    Officer uses the information in the Joint Staff quarterly report for the overall
    DOD Y2K report that it sends to the Off& of Management and Budget.




    The 23 DOD Components include all Defense agencies and the Services. Some
    of the smaller Defense agencies are consolidated into 1 of the 23 DOD
    Components.

                                       15
Appendix B. Reporting,    Schedule, and Area of Concern



      SOCOM Internal Reporting Process. The SOCOM has instituted an internal
      Y2K reporting structure to provide an overview of SOCOM system progress
      through various phases of the Y2K management process. The information is
      used to assist the SOCOM Y2K Steering Group in managing the overall Y2K
      effort. Table B-l shows the number of systems and reporting categories for
      SOCOM.
                         Table B-l. SOCOM Y2K Systems Status
                                (as of November 12, 1997)‘,’

                                Svstems Tvoe               Number

                         SOCOM-managed
                           Managed systems                    35’
                           Internal applications              43
                           Devices                            11
                         Not SOCOM-managed
                            Supporting systems                 822
                            Supporting devices
                            COTS/GOTZ? hardware              33:
                            COTS/GOTS software               154

                         ‘The SOCOM originally identified 12 SOCOM-managed
                         systems as mission critical. Based on management
                         comments, as of February 23, 1998, SOCOM identified 37
                         SOCOM-managed systems as mission critical. The SOCOM
                         did not identify the total number of managed systems in their
                         comments.
                         ZThe SOCOM originally identified 0 supporting systems as
                         mission critical. Based on management comments, as of
                         April 10, 1998, SOCOM identified 68 mission-critical
                         supporting systems. The SOCOM did not identify the total
                         number of supporting systems in their comments.
                         ‘Commercial off-the-shelf, Government off-the-shelf.

                         Source: SOCOM.




                                          16
                          Appendix B. Reporting, Schedule, and Area of Concern




Schedule
    The overall SOCOM Y2K effort is organized into five specific phases with
    principal milestones established for each phase. To further facilitate project
    management and coordination, SOCOM has established additional target dates
    within each phase. The SOCOM Management Plan states that the dates are
    critical and immovable, and therefore compliance timelines must be
    accomplished in accordance with the Y2K project schedule. Table B-2 shows
    the summary of the phases and milestones.

               Table B-2. SOCOM Y2K Program Phases and Milestones
                                                                  Milestones
                   Phase                                  S                Finish
     ’
     1.   Awareness - informing                           J:;    1996        Ongoing
    2.    Assessment - Y2K compliance determination     March    1997 October 1997
          2.5. Damage control contingency_ planning
                                             -          March    1998    August 1998
     3.   Renovation- fix problems -
          3.1. Determine cost                             June   1997 November    1997
          3.2. Determine schedule                    November    1997 January     1998
          3.3. Fix the problem                         January   1998    August   1998
    4.    Validation - testing solutions and           January   1998 December    1998
              Y2K compliance
     5.   Implementation - fielding compliant systems January    1998      July 1999




SOCOM Area of Concern
     Although SOCOM is aggressively seeking ways to reallocate funds to cover the
     $5.8 million estimated cost of the Y2K program, DOD funding for Y2K would
     help the overall Y2K program to succeed. Based on management comments, as
     of April 10, 1998, SOCOM identified $11 million as required to fix the Y2K
     noncompliant systems.




                                         17
Appendix C. Report Distribution


Office of the Secretary of Defense
Deputy Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Acquisition Reform)
  Deputy Under Secretary of Defense (Logistics)
  Director, Defense Procurement
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Sedretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  DOD Year 2000 Project Officer
Assistant Secretary of Defense (Health Affairs)
Assistant Secretary of Defense (Public Affairs)

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Chief Information Officer, Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy
Chief Information Officer, Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Chief Information Officer, Air Force




                                         18
                                                      Appendix C. Report Distribution




Unified Commands
Commander   in   Chief,   U.S.   European Command
Commander   in   Chief,   U.S.   Pacific Command
Commander   in   Chief,   U.S.   Atlantic Command
Commander   in   Chief,   U.S.   Southern Command
Commander   in   Chief,   U.S.   Central Command
Commander   in   Chief,   U.S.   Space Command
Commander   in   Chief,   U.S.   Special Operations Command
Commander   in   Chief,   U.S.   Transportation Command
Commander   in   Chief,   U.S.   Strategic Command


Other Defense Organizations
Director, Ballistic Missile Defense Organization
   Chief Information Officer, Ballistic Missile Defense Organization
Director, Defense Advanced Research Projects Agency
   Chief Information Officer, Defense Advanced Research Projects Agency
Director, Defense Commissary Agency
   Chief Information Officer, Defense Commissary Agency
Director, Defense Contract Audit Agency
   Chief Information Officer, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
   Chief Information Officer, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
   Inspector General, Defense Information Systems Agency
   Chief Information Officer, Defense Information Systems Agency
Director, Defense Legal Services Agency
   Chief Information Officer, Defense Legal Services Agency
Director, Defense Logistics Agency
   Chief Information Officer, Defense Logistics Agency
Director, Defense Security Assistance Agency
   Chief Information Officer, Defense Security Assistance Agency
Director, Defense Security Service
   Chief Information Officer, Defense Security Service
Director, Defense Special Weapons Agency
   Chief Information Officer, Defense Special Weapons Agency
Director, National Security Agency
   Inspector General, National Security Agency
Director, On-Site Inspection Agency
   Chief Information Officer, On-Site Inspection Agency
Director, Washington Headquarters Services
Inspector General, Defense Intelligence Agency
Inspector General, National Imagery and Mapping Agency




                                              19
Appendix C. Report Distribution



Non-Defense Federal Organizations and Individuals
Chief Information Officer, General Services Administration
Office of Management and Budget
   Office of Information and Regulatory AfFairs
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office
Director, Defense Information and Financial Management Systems, Accounting and
   Information Management Division, General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:
  Senate Special Committee on the Year 2000 Technology Problem
  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Governmental Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                          20
Part III - Management Comments
U.S. Special Operations Command Comments
                      UNITED STATES SPECIAL OPERATIONS COMMAND
                           OFFICE OF THE DEPUlY COMMANDER IN CHIEF
                                       no1 TAMPAPClNTSLVD.
                               WCMLL AIR FORCE BASE.FLORIOA 33SZ1-6323




   MEMORANDUM          THRU:

   DIRECRBR.     JOINT STAFF, PENTM3ON.         WASHINOTON.       DC 203 18

   FOR: INSPEIXOR OENERAL, DEPARTMENT OF DEFENSE 400 ARMY NAVY DRIVE,
   ARLINGTON, VIROINIA 22202

   SUBJlXX Audit Report on U.S. Special Operations Command Year 2000 Issues (Project No.
   SAS-06.00)


    1. As Deputy Commander in Chief of tbc United Statea Special Operations Command
   (USSOCOM), I tecogniz the importance of tk Year 2000 (Y2K) problem. I ako tmdemmd
   theimpectthatthcpotentipl~nnfourintormationtechnologyO~cnn~~on
   special operation forces @OF). To ensum that our mission ctitical systems will sumwit&
   operate in the year 2000 and beyond, USSOCOM has twkwcd the DOD Audit report and
   addrc.sscd the issuc~ identified in the audit. Representatives at all kvels of this mumand arc
   involved in rectifying USSOCOM Y2K issues.

   2. Our tnauagemcnt comments to the draft audit arc dcscrii in Tab A. USSOCOM concurs
   with the report fmdiis and has impkmented actions based on the recommendations contained in
   the audit report. l%c audit recommendations arc:

       e Rcvkw changes to the DOD Year 2000 Management Plan and take appropriate sction
   based on those changes;

      b. Continue to idcntiry mission critical systems that the USSOCOM manages;

       C. Continue to identify interfaces and prcpprc written inter&c ayeemtnrs for mission
   critical systems that USSOCOM mpnages;

      d. Continue to identify mission ctitkal supporting systems that !krvies or other
   organizations manage;




     f. Develop contingency plans for mission critkai systems in accordance with USSOCOM
   Year 2ooo Managctnult phn;




                                                     22
                                        U.S. Special Operations Command Comments




3. AstheYePr2000~ppproachesour~oNrerminfoauedonFeoohrhrgYZK
issucsldatedtoourlTsystems. ussOcOMapp~tkopporttmitytoprovideour
mpllpomnt commcntato the draftauditreport. My point of contactfor Y2K dons   is h4ajor
Rodney Syheswr, SOIOdX-ED, (813) 828-7489, DSN 968-7489.




ElMA
as                                              Rear k&ml, U.S. Navy
                                               Dqnltycommandcrinchicf
                                                 AndchkfofStaff




                                        23
U.S. Special Operations Command Comments




       Audit Report on U.S. SpecJai Mtiom        ComnmndYear20OO~at(k#ctNo.8AS-
       0006.00)


       RRCOMMEHDATION 1: Review changes to the ‘POD Year Zoo0 Managemat Pk”                 and
       take appropriate mbm hased on those change&




       RECOMMENDATION 2: Continue to identify mission critkal systems that USSGCOM
       rrrmpgck

       USSOCOM COMMENTS: Concur. GurY2K program management pcrsormelkeificd 37
       USSOCOM managed n&ion critical systems as of kb 23.1998. ‘I& USSGCOM Y2K
       Steering Group evahtated our mksion-crikal systems and tanked them in priority order bmsedon
       theircriticality. TheselnkPioncriticalsystemswenreportedtotbeJointStaffvkamrilin
       March 1998. We will record this data into the Defense Jntcgratcd Support Tool (DIW when the
       DlST system becomes operational. We will provide an updated USSOCOM managed mksiin
       uitical systems status in the upcoming April 1998 Y2K Quiutcrly Report.

       RJXOMTk¶ENDA’I’JON3: Continue to identify interface and prepare written intcrfpa
       agreements for mist&n ctitbal systems that USSGCOM manages.

       USSOCOMCOMMENTS: Concur. This is an on-going c&t. As of March 1998, we
       id&&d 141 in&aces between USSGCOM managed systems and tbc supporting systems that
       ate managed by Scrvks or other orglmizptio= Cme.ntly, we arc dcvcbping memorandums of
       Pgrcement (?vfG&) for our WdertUdbtCtfaCC%Tk tiK8Ctcompletion date for ti interface MOAs
       ir 3 August 1998. We will provide w interface update in our April 1998 Y2K Quaeerly Report.

       RECOMMENDATION 4: Continue to identify missbn critical supporting systems thnt
       services or other organkatbns manage.

       USSOCOM COMMENTS: Concur. To date, we have identified 68 t&ion critkal supporting
       systems. As an ongoing effort, USSGCOM win continue to ident@ mist&n &icalalpporting
       systemp. InJPnuvyl998,wesubmittedaliptofourmipsioncriticrlsupportingsysremrtothe
       Joint Staff to distribute to tk ssrvices and other organizatbns. We will mport our mission
       critkal supporting systans to the Joint Staffintk April 1998 Y2K Quanaty Report.




                                                  24
                                            U.S. Special Operations Command Comments




AtId& Rftport on us special opemt5onsComnmndYear~Ismcr(FrqjectNo.8AS-
OlMl6.08)(continued)


RJICOMMENDATION 5: Refine cost &mates for each iudivklual system to d&amine
amounts needed for kmd anoc.ation.

ussocoM    co-          Concur. We arc continuously refining the coat estimate for epch
system. Cum&,  WChave kbntifkd $11M as mquircd to fix our Y2K non-compliant systems.

RECOMMENDATION 6: Devebp contingency plans for mission critical systems in
ascordana with the U.S. Special Opcratioos Command Year 2000 Maaagcmcnt Plan.

USSOCOM COMMENTS: Concur. In January 1998, we diitcd                    missbn critbal
contingency plan templates to our program managers to assist their efforts in this task. The
program managers, and Center Directorates UC cunatly devcbping contingency plans and
updated plans are provided during our monthly steering group meetings. Our target completion
date for contingency plans is 3 Aug 1998.

RECOMMENDATION 7: Dctcnninc systems aa year u)oo compliant at& testing and
completing comptiance checklists.

USSOCOM COMMENTS Concur. Compliance checklists arc provided for each system as
partoftkvalidationplantcmplatc.     Allmanagcdsystems8rcscMuMfortcstingand6nal
catiiication for Y2K complkmce. The original vendors, DOD cut&d test laboratok!s. or our
USSGCGM compliance certifkation GBce (CCO) win pelform testing required to cut& our
manage systems. The USSOCOM Y2K Steering Group will determine whether a system is
certikd compliant before exiting the validation phase.

REXIOMMENDATION 8: Use selected command and joint exercises to test year uxx)
sccnarbs in an opcratioqal enviromznt.

USSOCOM COMMENTS: Concur. USSOCOM is devebping pn integrated implemaatbn
plan. Ourgoalistoirnpbmentourmnnaged~withtheirtespectivcudemplintcrfPceffMd
sukqueatly integrate these hack into the USSOCOM enteiprisc. We agree that a joint excn.4~~
to “test run” our managed systems is mxded, and prt working hard to integrate testing and
exercise sccnarbs into our current operatbnal-tempo.




                                             25
Joint Staff Comments




        biEKDR4NDUMFoR?HB RWPEClDRGENERAL. DEPARIMEWOF
                       DEFENSE




                                                         ,




                                26
                                                               Joint Staff Comments




Audit    Report    on U.S. Speaial Oper8tion8   Carund   You    2000   18su*s
(Project    IUo.   @AS-0006.00)



REYTIO?i       1: Assist the unified commands in obtaining year
2000 information on mission-critical supporting systems that
Services or other organizations manage.

J0xNT8TMR -8:          Concur.  The Joint Staff year 2000
Coordinator works closely with the Services and Defense Agencies
to ensure mission critical supporting systems identified by the
unified commands are addressed as mission critical by the system
owners. Additionally, the Joint Staff has functional proponents
across the staff who are engaging on warfighting issues resulting
from the Year 2000 challenge. The Office of the Secretary of
Defense for Command, Control, Communications, and Intelligence
(OSD/C31) recently made a decision to terminate use of.the
Defense Integrated Support Tools (DIST) data base for Year 2000
reporting. The Joint Staff is taking the lead in creating a new
DOD Y2K mission critical systems data base to give the
warfighters visibility into year 2000 actions for all such
systems supporting their respective missions.

RBCC#UINMTIOU 2: Assist the unified commands in testing systems
and applications that are common to the unified commands.

JoIUTsTAs7ccM4BUTs:    Concur. The Joint Staff has been
facilitating use of the Joint Interoperability Test Command
(JITC) for the Year 2000 testing of systems owned by the unified
commands, as well as those owned by the Services and Defense
Agencies which support unified command missions, Additionally,
the Joint Staff engages the vendors which provide the many
commercial-off-the-shelfproducts common to the unified commands
on Year 2000 issues.

RELATION       3. Use selected joint exercises to test year 2000
scenarios in an operations environment.

JOINT STAFF-S:         Concur. The Joint Staff is working with
the OSD/C31 and OSD Acquisition and Technology (A&T) Year 2000
testing points of contact to determine viable joint exercise
opportunities in which year 2000 testing would be value-added.




                                     27
Audit Team Members

This report was prepared by the Acquisition Management Directorate, Office of
the Assistant Inspector General for Auditing, DOD.

Thomas F. Gimble
Patricia A. Brannin
Mary Lu Ugone
Dianna J. Pearson
Hugh G. Cherry
Richard B. Vasquez
Scott S. Brittingham
Jennifer L. Zucal
Cristina Maria H. Giusti
